August 5,2021
Office of the Clerk
Chief Judge John G. Roberts Jr.
1 First Street N.E.
Washington, DC 20543
Dear Chief Judge John G. Roberts Jr.:

Re: Plaintiff Curry would like to motion / Petition
the court to hear my Rehearing:
Case No. 20-1219
Carline Curry vs. Douglas Mackenzie
The document denying the Writ of Certiorari was mailed from the court
on May 15,2021 and received by me on July 14,2021, the document had
been opened and held by the post office or lost somewhere.
and made a complaint on July 15,2021

Service Request ID:29014916

Thank you for your time and consideration.
Are in separate envelopes attached together.
Dollars for the rehearing.

I called the USPS

The rehearing and motion
I have enclosed a check for 200.00

Check number 133.

The original writ should have

Been received at the court house on March 2,2021
Thank you for your time and consideration.
Sincerely,
(2 Ch^JL^ ^

Carline Curry Pro S&
Carline Curry
606 Bowman Street
Mansfield, Ohio 44903
567-274-9130

0E971 - V5rank,in County 0hio c,erk of Courts of the Common Pleas- 2019 Dec 1810:36 AM-18CV001560

IN THE FRANKLIN COUNTY COURT OF COMMON PLEAS
GENERAL DIVISION
Carline Maria Curry,
Plaintiff,

Case No. 18-CV-001560

vs.

Judge Jeffrey M. Brown

Douglas MacKenzie,
Defendant
JUDGMENT ENTRY ADOPTING MAGISTRATE’S DFCTSTOiv
BROWN, J.
On July 25, 2019, this Court granted the Motion for Default Judgment filed by Plaintiff
Carline Maria Curry. In said Entry, the Court found that Defendant Douglas MacKenzie—a patent
attorney—had been duly served with Summons and a copy of Plaintiffs Complaint in accordance
with law. The Court further found that, pursuant to Civ.R 55(A), Defendant'is ind^uit
to Answer or otherwise respond to Plaintiffs Complaint within the time period provided by CivilT
12, and, resultantly, Defendant has thereby confessed the allegations in Plaintiffs Complaint to be
true.
Although the Court granted Plaintiff s Motion for Default Judgment, the Court’s Entry did
not resolve this matter in its entirety. The Court granted default judgment in Plaintiffs favor on
the issue of liability only, finding that the amount of damages Plaintiff is entitled to recover could
not be determined solely from the pleadings and other documents filed in this case. Therefore, the
July 25, 2019 Entry granting Plaintiffs Motion for Default Judgment includes an Order of
Reference and Notice of Damages Hearing.
Pursuant to the Order of Reference, Magistrate Pamela B. Browning conducted a damages

-1-

E 3010 - SI7

MARYELLEN O'SHAUGHNESSY
CLERK OF THE FRANKLIN COUNTY COMNON PLEAS COURT, COLUMBUS, OHIO 43215
CIVIL DIVISION

CARLINE MARIA CURRY
606 BOWMAN STREET
MANSFIELD, OH 44903,

o

18CV-02-1560
PLAINTIFF,

CASE NUMBER

VS.

o
m
30
zx.
o
•n
O

VO

m

30

j>3

03
CO

o

-o

3C

CO

c/>

XT

c:

DOUGLAS MACKENZIE
17 REDWOOD ROAD
FAIRFAX, CA 94930,

o
~n o
3

—n

r—o—

Sg-3
§p
oS
*

DEFENDANT.
**** SUMMONS ****

02/12/19

TO THE FOLLOWING NAMED DEFENDANT:
DOUGLAS MACKENZIE
P0 BOX 1295
MOUNTAIN VIEW, CA 94042

YOU HAVE BEEN NAMED DEFENDANT IN A COMPLAINT FILED IN FRANKLIN COUNTY
COURT OF COMMON PLEAS, FRANKLIN COUNTY HALL OF JUSTICE, COLUMBUS. OHIO,
CARLINE MARIA CURRY
BY:
606 BOWMAN STREET
MANSFIELD, OH 44903,
PLAINTIFF(S).
A COPY OF THE COMPLAINT IS ATTACHED HERETO. THE NAME AND ADDRESS OF
THE PLAINTIFF'S ATTORNEY IS:
CARLINE MARIA CURRY
606 BOWMAN STREET
MANSFIELD, OH 44903

JfOU ARE HEREBY SUMMONED AND REQUIRED TO SERVE UPON THE PLAINTIFF'S
"attorney r~tflnjPON~TRb PLAHreHTr~IF HE~3AS~R0 ATTORNEY UF RECORD. A- COPY
"OF'AN ANSWER TO THE COMPLAINT WITHIN TWENTY-EIGHT DAYS AFTER THE SERVICE—
OF THIS SUMMONS ON YOU, EXCLUSfVB OF THE DAY OF"SERVICE. YOUR ANSWER
fiUSfBF FILED WITH THE COURT WITHIN THREE DAYS AFTER THE SERVICE OF A
COPY OF THE ANSWER ON THE PLAINTIFF'S ATTORNEY.
IF YOU FAIL TO APPEAR AND DEFEND, JUDGMENT BY DEFAULT WILL BE RENDERED
'^-RSAIMStToU FOR THETrBETEF-DEMANDED IN-TilC COMPLAINT*—------------------------MARYELLEN 0'SHAUGHNESSY
CLERK OF THE COMMON PLEAS
FRANKLIN COUNTY, OHIO
py»

HRRTft Hi RRT.fty. nrPHTv rr.FTRK
(CIV370-S03)

'V

2/10/2020
eFIex

Jl

IMMj,;;:

^ L.
- r&zziZ

Franklin fe-r,--

t*lgcironic filing.

eFile
?i> Submission Oonfirmafion

teen CARUNE MARIA CURRY

Your Filing has been submitted
C&se Type: H-Other Civil - BRIEF OF

red, a

I

I
I
I
© 2001^2016 lybsia Oevelopmsir Group, Inc. AD rights reserved.

I

0

f~ I Ucf

□-/ o- 'v&0

fcntf

9:56

.ll LTEf__ J-

Transaction details

Completed 03/03/2021
Debit Purchase -visa Fedex 7842547419memphis Tn 03/01
Card 7240

AVOID FUTURE OVERDRAFTS
When you made this transaction, there were

of
of

funds held for debit card authorizations and
funds held for pending transactions. This created an

. To avoid future fees, set up
available balance of
an overdraft protection option.

p4&k^
TRANSACTION INFO

Purchase

Type

Debit card ...7240

Card used

03/01/2021

Transaction date

6:13 p.m.

Time

CATEGORY

/

n
' o
Pay bills
& transfer

Deposit
a check

Assistant

2etle

G

Send
money

Explore
& apply

/

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 2012:38 PM-18CV001560

0E583 - G47

whether or not the Defendant is in military service and showing facts to support the affidavit”
required under the Servicemembers Civil Relief Act. 50 U.S.C. 3931(b)(1)(A).
Based upon the foregoing, the Court finds Plaintiffs Motions for Default Judgment and
Motions to Certify Service by Publication is Complete not well-taken and hereby DENIED. The
Court notes that Plaintiff appeared in this matter for a pre-trial conference on February 12, 2019,
at which time it detailed the instant ruling to Plaintiff, noting that nothing in this Entry shall
preclude re-filing a Motion for Default Judgment should Plaintiff undertake the proper steps to
effectuate service upon Defendant and include the aforementioned military-status affidavit. That
same day, Plaintiff filed with the Clerk a request for service via ordinary mail, and on February
13, 2019, the Clerk issued a certificate evidencing the February 12, 2019 mailing. Thus, pursuant
to Civ.R. 4.6(D), Defendant’s answer day was 28 days from February 12,2019.
ITIS SO ORDERED.

Copies via ordinary mail to:
Carline Maria Curry
606 Bowman Street
Mansfield, OH 43202
Douglas Mackenzie
17 Redwood Road
Fairfax, CA 94930

-3-

^

